<html>
<title> - EVEREST TREMBLED: LESSONS LEARNED FROM THE NEPAL EARTHQUAKE RESPONSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  EVEREST TREMBLED: LESSONS LEARNED FROM THE NEPAL EARTHQUAKE RESPONSE

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

                           Serial No. 114-48

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-690 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nisha Desai Biswal, Assistant Secretary, Bureau of 
  South and Central Asian Affairs, U.S. Department of State......     6
Mr. Thomas H. Staal, Acting Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    18
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    20
Ms. Anne A. Witkowsky, Deputy Assistant Secretary of Defense, 
  Stability and Humanitarian Affairs, U.S. Department of Defense.    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nisha Desai Biswal: Prepared statement.............    10
Mr. Thomas H. Staal and the Honorable Jonathan Stivers: Prepared 
  statement......................................................    22
Ms. Anne A. Witkowsky: Prepared statement........................    32

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48

 
  EVEREST TREMBLED: LESSONS LEARNED FROM THE NEPAL EARTHQUAKE RESPONSE

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. As I mentioned during markup, Nepal was hit 
with a devastating 7.8 magnitude earthquake on April 25, 
followed by another 7.3 magnitude earthquake on May 12, 
claiming the lives of over 8,000 people and leaving millions 
affected and at risk.
    Some have argued that the disaster in Nepal was partially 
mitigated by advanced preparation of USAID and others through 
its 60-year presence in Nepal engaging in disaster risk 
reduction.
    Today, we will discuss the U.S. Government efforts to 
alleviate the circumstances of disaster in Nepal. We expect our 
distinguished witnesses to highlight successful, effective 
preplanning efforts. But I also expect an honest assessment of 
the long-term implications and challenges for rebuilding and 
protecting vulnerable communities. I would also like to hear 
about what we can do to make our foreign aid efforts more 
efficient.
    The United States has committed nearly $47 million for 
response and recovery efforts in Nepal. We are working with a 
dozen other nations in cooperation with the United Nations, as 
well as thousands of foreign personnel on the ground in Nepal 
assisting with our relief projects. Our efforts have been 
particularly concentrated on search and rescue, shelter, water, 
and sanitation. But we have been involved in nearly every 
aspect of the response to some degree.
    As far as USAID is concerned, they deployed a Disaster 
Assistance Response, or DART team the day of the event, sending 
over 120 people, search and rescue dogs to Nepal aboard 
military aircraft within hours. The team's urban search and 
rescue personnel, some based in nearby Fairfax, Virginia, as 
was referenced, spent weeks working miracles, pulling survivors 
out of the rubble in Kathmandu and elsewhere, while other DART 
personnel investigated the safety of damaged structures.
    I look forward to hearing more about their heroic 
activities and how preparations such as the DART's readiness 
and prestaged supplies helped in Nepal.
    The State Department helped to connect thousands of 
American citizens with their loved ones in Nepal during the 
earthquake. I have also heard that the U.S. bilateral 
connections are playing an important role in the crisis 
response. Our partner nations in the region are leveraging U.S. 
capabilities to help shoulder more of the burden.
    I would like Assistant Secretary Biswal to inform the 
committee on whether this may be an indication that future 
disaster responses in the region might be less reliant on U.S. 
agencies.
    The Department of Defense supported these efforts by 
providing airlift and other support at USAID's request. Though 
DOD does not take the lead in comprehensive disaster support 
such as this, without their support such efforts would be 
impossible.
    Our military is also our country's most significant 
strategic presence in Asia, and we rely so heavily on their 
capabilities both to support our existing partners and to 
develop new ones through military cooperation. I look forward 
to hearing about the military's engagement during the crisis 
and how their support of operations in Nepal will inform their 
strategies in the future.
    Enduring needs and increased risks for Nepal. Despite these 
incredible efforts for our country and many others, the crisis 
is far from over in Nepal. The coming months and years will be 
the true test of our response capabilities. Monsoon season is 
fast approaching. Large numbers of homeless people exposed to 
the elements during this time would be a dire enough problem in 
and of itself.
    The earthquakes have also changed the water tables in 
Nepal, reducing water quality, creating large amounts of 
displaced earth, and increasing the risk of flooding. Nepal 
faces enormous water and sanitation dangers.
    Food shortages are also a major concern. I understand the 
crisis hit just before the planting season and that there were 
efforts to help farmers get their crops in the ground. 
Additionally, I am concerned by reports that U.S. food 
assistance, including food that has been prepositioned in Sri 
Lanka in order to reduce delivery times, will take up to 45 
days to arrive in Nepal. I would appreciate a report on this 
delay and any idea of Nepal's longer-term food outlook.
    These and other challenges will disproportionately affect 
the vulnerable populations among Nepal's displaced peoples, 
including women and children. Given the history of trafficking-
in-persons issues in Nepal, support of these vulnerable 
populations will be of the utmost importance, and I would like 
our administration witnesses to discuss how we are working to 
ensure their safety.
    As we consider these horrific enduring challenges, however, 
we should not forget that the response to the Nepal crisis 
highlighted just how effective some of our disaster response 
mechanisms really are and reduced some of the earthquake's 
devastating impact. I have heard that safer building techniques 
meant that we suffered zero U.S. Embassy or local personnel 
fatalities and that prestaged supplies in Nepal are helping us 
get people shelter faster. It is also very exciting to hear 
that some of our partner nations are using U.S.-built 
capabilities to contribute to that response.
    I am interested to hear our witnesses' insight on what this 
means regarding the efficacy of these investments in the 
region, whether U.S. capacity building in the region is 
increasing regional disaster response effectiveness, and how 
these type of investments can reduce the cost of disaster 
response operations for the United States in the long term.
    It is under extremely unfortunate circumstances that we 
discuss these efforts, but this is precisely what we have many 
of these organizations for. Discussing the challenges we face 
in the region is necessary to prepare for future potential 
disasters and working toward minimizing the loss of life, as 
well as depleting limited resources associated with relief 
efforts.
    I give my sincere thanks to our colleagues and our 
witnesses for joining us in this conversation today. And I 
yield to the ranking member, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    The United States has demonstrated a longstanding 
commitment to assistance in disaster readiness in Nepal. For 
over 60 years we have had a presence in Nepal in the form of 
our bilateral aid program. And we have been focused, as you 
indicated, Mr. Chairman, on strengthening the country's 
disaster response capabilities for the last two decades.
    U.S. efforts include the establishment of a disaster risk 
reduction office to coordinate government investments that make 
the country more resilient in the face of natural disasters, 
implementation of the program for the enhancement of emergency 
response to train Nepali first responders and medical 
personnel, and publication of a disaster risk reduction 
strategic framework for the country.
    We obviously will be very interested in hearing how some 
things worked and some things didn't in the face of this 
natural disaster.
    As part of the U.S. response to a 7.8 magnitude earthquake 
that occurred on April 25, the U.S. Agency for International 
Development Office of Disaster Assistance deployed, as it often 
does, a Disaster Assistance Response Team, or DART, that 
included elite urban search and rescue teams from my home 
county, Fairfax, Virginia, and Los Angeles, California. 
Physicians, K-9 handlers, structural engineers, technical 
search and rescue specialists, paramedics, and other personnel 
volunteer to serve on these teams and deploy abroad on a 
moment's notice, and we have done it all over the world for 
decades. And it makes one's heart feel better on television 
watching the backs saying LA team, Fairfax team, because you 
know Americans are putting themselves at risk to try to save 
fellow human beings they have never met in a faraway place.
    Once in country, the team quickly begins to facilitate 
relief efforts. This time, that task was immense. The team 
found a dire situation in the region most heavily affected by 
the earthquake which killed more than 8,000 people and injured 
at least 16,000 more. The seismic impact left over 750,000 
homes damaged or destroyed and 1.5 million people displaced, 
even without access to clean water.
    Team members helped Nepali personnel assess whether 
structures were safe to inhabit and provided technical guidance 
on how to shore up buildings that needed to reinforced. 
Miraculously, the U.S. search and rescue teams also helped to 
pull a 15-year-old boy from the rubble of a building 5 days 
after the earthquake had struck. Additionally, after 
experiencing a 7.3 magnitude aftershock, the team quickly went 
back to work and rescued a 41-year-old woman who had been 
trapped in a four-story building.
    U.S. assistance efforts are not cost-free endeavors, 
however, and they certainly are not without risk. Tragically, 
six of our marines were killed in a UH Huey helicopter crash 
while on a humanitarian mission in response to this earthquake.
    The dangerous nature of these deployments on behalf of 
vulnerable populations abroad further demonstrates the resolve 
of U.S. foreign assistance operations. We should honor the men 
and women who stepped forward to put themselves in harm's way 
on behalf of this mission.
    Disaster response tests the limits of domestic 
institutions, as well as international assistance and 
cooperation. I certainly look forward to hearing from our 
witnesses about the performance of the U.S. team in Nepal, 
lessons learned, and how we can further improve our 
coordination with Nepal, and prospectively other international 
partners, when the need for such disaster relief effort arises 
again, as we know inevitably it will.
    I welcome recommendations on how we can promote the 
democratic transition in Nepal and put a decade of civil war 
firmly in the rear-view mirror. It is only through strengthened 
governance and civil society institutions that Nepal will be 
able to develop fully its own disaster response capabilities, 
resilient enough for this disaster-prone region in the world.
    And with that, I yield back, Mr. Chairman.
    Mr. Salmon. Thank you.
    Does anybody else wish to be recognized?
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, for calling this 
important hearing.
    The devastating earthquake that hit Nepal on April 25 was 
heartbreaking. The incredible loss of life is tragic beyond 
words, and the loss of thousands of years of history places an 
enormous gap in the historical record of Nepal's people. 
Picking up will not be easy, and unfortunately, Nepal will 
never be able to get back all that it has lost.
    The international response to the quake, however, has been 
considerable. And in particular, the U.S. Government's response 
efforts from the State Department, USAID, and the Department of 
Defense, its immediacy and rapid-fire response made a 
difference and saved many lives. You are to be commended and 
thanked for your considerable effort there.
    The dedicated U.S. team that joined the response effort 
deserves our gratitude. As you already mentioned, Mr. Chairman, 
and the ranking member mentioned, six of our marines paid the 
ultimate price to help the Nepalese people, and they will 
forever be missed, and we should remember them.
    Three years ago, I happened to visit Nepal, and as soon as 
I heard this, I remembered it like it was yesterday: The 
Ambassador voicing his concern to us as we drove about the 
stone buildings and the brick buildings and the vulnerability 
to the quake when the big one hit, which ultimately it would. 
The thing that is particularly frightening, is that this 
apparently wasn't the big one. There is probably one even 
bigger coming. Hopefully, that can be considered in the 
efforts, not just the rescue efforts and the recovery effort, 
everything that has happened right now, but long-term 
preventing more people from losing their lives down the road 
and how we can assist in that effort.
    So, again, thank all of you for everything you have done to 
help.
    And thank you, Mr. Chairman, for holding this hearing. 
Yield back.
    Mr. Salmon. Ms. Meng, would you like to make an opening 
statement?
    Ms. Meng. Thank you, Mr. Chairman, Ranking Member Sherman, 
and our witnesses for being here of course.
    New York City is home to thousands of Nepalese Americans, 
and we have Nepalese community centers in our districts and 
throughout the borough of Queens. So this earthquake has 
affected my constituents in a very personal way.
    I want to thank all of your departments for the immediate 
response to the crisis and your ongoing efforts. In a tragedy 
like this one, every minute and every hour is important and can 
mean the difference between a life saved and a life lost.
    This has been a humanitarian crisis of immense proportions. 
As of May 13, the Government of Nepal estimates that more than 
8,200 people have been killed and over 17,900 injured. From 
what I understand, an earthquake in Nepal was considered one of 
the worst-case scenarios as far as potential environmental 
disasters in Asia. I would like to hear from you on how your 
preparations helped facilitate appropriate aid in this crisis 
and what more needs to be done to prepare for future disasters.
    Thank you, and I yield back.
    Mr. Salmon. Thank you.
    Mr. Brooks, did you have an opening statement?
    Mr. Brooks. No, sir.
    Mr. Salmon. Well, thank you.
    We are proud and very appreciative today to speak with a 
panel of some of the administration's most knowledgeable and 
senior figures handling this crisis. Appearing before the 
subcommittee once again is Nisha Biswal--great to see you 
again, I am glad to have you here--Assistant Secretary of State 
for South and Central Asian Affairs. Assistant Secretary Biswal 
has just returned from Nepal. And we are very much looking 
forward to hearing about your findings there.
    We are also very grateful to hear from Thomas Staal, 
USAID's Acting Assistant Administrator of the Bureau for 
Democracy, Conflict, and Humanitarian Assistance. Also joining 
us, again from USAID, is Jonathan Stivers--great to have you 
here again, Jonathan--Assistant Administrator of the Bureau for 
Asia. This is Mr. Stivers' third time before the subcommittee.
    I am getting to see more of you than my family members. So 
it is great. And we are very glad that you keep coming back, 
that we haven't scared you away. That is good.
    And finally we have Anne Witkowsky.
    Did I say that right?
    Ms. Witkowsky. Yes, you did.
    Mr. Salmon. I hate it when people mispronounce my name, so 
I want to make sure I get it right. The Deputy Assistant 
Secretary of Defense for Stability and Humanitarian Affairs.
    The subcommittee gives sincere thanks to the panel for 
their insights this afternoon. And I am going to start with Ms. 
Biswal. Thank you.

   STATEMENT OF THE HONORABLE NISHA DESAI BISWAL, ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Biswal. Mr. Chairman, thank you so much for this 
important and timely hearing on Nepal. Ranking Member Connolly 
and members of the committee, it is tragic that the earthquake 
in Nepal is what brings us together here, but I want to thank 
you for your very comprehensive and very heartfelt statements 
and for the very strong support of the United States Congress 
in the relief efforts from the United States and really from 
around the world for the people of Nepal at this time.
    I am particularly proud to be appearing at this hearing 
with my colleagues from USAID and the Department of Defense, 
which is a really true indication of the spirit of civil and 
military cooperation in the United States when it comes to 
issues of humanitarian response.
    In the interest of time, and because we have such detailed 
expertise at the dais, I want to ask that my full statement be 
entered into the record, and I will just summarize a few key 
points here.
    Mr. Chairman, the outpouring of concern from the U.S. 
Congress in the days and weeks following the earthquake, and 
the surge in contributions to relief organizations, is a real 
testament to the generosity of the American people and a true 
indicator of the common values that unite us during difficult 
times.
    As you noted, the 7.8 magnitude earthquake in Nepal took 
over 8,600 lives and injured over 17,000 people. Last week, I 
traveled to Nepal and witnessed firsthand the devastating 
losses suffered by the Nepalese people, but also the triumph of 
the human spirit, the resiliency of the affected communities, 
and the courage and the commitment of the relief workers as 
they all came together to help Nepal recover from this 
devastating earthquake. I saw the grit and determination in the 
faces of those who had lost their homes and their family 
members, but who had not lost their hope.
    It was heartbreaking news, as I arrived in Nepal, that the 
American UH-1 helicopter had crashed with no survivors. And 
that news reached our team in Kathmandu, as we had kept our 
search efforts and our hopes alive for 4 days in search of that 
helicopter. We salute those brave military professionals, 
Americans and Nepalese, who perished in their Nation's service 
while helping those in need.
    I also want to take a moment to express our extreme 
gratitude to the strong support of the Indian and Nepalese 
forces who joined us in that extensive search for our missing 
helicopter. As General Wissler, the lieutenant general task 
force commander of Joint Task Force 505, noted to me, the 
Nepalese and Indian forces joined in that search as if it was 
one of their own that had gone missing.
    The U.S. civilian responders, led by the AID DART team and 
the Embassy team, and our search and rescue teams from Fairfax 
and Los Angeles, all worked tirelessly to save lives and bring 
assistance. They are heroes that embody the best of American 
values.
    Mr. Chairman, Nepal is a nation of tremendous strength and 
bravery. It was just on the verge of emerging from a 10-year 
civil war and moving toward strengthening its democracy and 
moving down a path of development. It is now a country that is 
recovering from a major tragedy and focusing on the most 
immediate needs of shelter, of food, and of health.
    If we are to help Nepal not only recover from this 
earthquake, but also continue down that path of political 
transition and progress, it is going to require the considered 
effort of the United States and the international community, 
and most importantly, of Nepal itself.
    Our immediate focus, Mr. Chairman, is on beating the clock, 
as the monsoon rains that are expected in about a month's time 
threaten to bring a new onset of disaster. We are racing 
against time to provide shelter, to help people get crops in 
the field, and to move toward a post-monsoon recovery phase.
    When I was in Nepal, I had a chance to visit a town of 
Sankhu, about an hour outside of Kathmandu, where I saw 
devastation which was heartrending, with 50 to 60 to 70 percent 
of the buildings and structures destroyed or damaged beyond 
habitation. Yet at the same time, we saw perseverance in the 
faces of the Nepalese people who were already undertaking the 
task of trying to put their lives and their homes back 
together.
    The U.S. Government has already committed nearly $47 
million in assistance. But, Mr. Chairman, I want to note that 
some of the most important lifesaving assistance that the 
United States provided happened before the earthquake struck, 
as you noted. And because of the strong support of the United 
States and the American people and the investments we have made 
over the years, the Nepalese Government and the Nepalese 
military, which had been training with our military, was in a 
much better capacity to respond to this earthquake.
    Our Embassy staff, under the leadership of Ambassador Peter 
Bodde and our Deputy Chief of Mission, John Carwile, who is 
actually with us today at this hearing, the Embassy staff 
performed above and beyond the call of duty in the recent 
weeks. After undergoing that tragic earthquake, they were up 
and ready to assist within hours.
    And that team, because of the investments that the American 
Congress has supported over the last 5 years, did not lose a 
single life on the Embassy staff. We had put everybody into 
earthquake-resilient housing and we had done drills in 
preparation that proved to be extremely lifesaving in this 
important moment, and they were able to go about the business 
of rendering assistance to others in need because their own 
needs and their own families had been taken care of.
    We learned important lessons in that process, and we will 
be looking at the best practices of what we did in Nepal in 
terms of our Embassies and people in other seismically prone 
areas.
    The Embassy has been open since the time of the earthquake, 
providing services to American citizens and others in need. 
Over 800 U.S. citizens and third-country nationals were 
sheltering at the Embassy for a number of days in the immediate 
aftermath of the earthquake. Over 50 U.S. and third-country 
nationals were rescued by the efforts of the Embassy team by 
chartering private aircraft before the U.S. military assets 
arrived on the ground. And they continue to work to provide 
assistance to American citizens in need across Nepal, as well 
as third-country nationals as necessary.
    Mr. Chairman, I want to talk a little bit about the 
regional responses to this earthquake. We have seen a 
remarkable response by the neighboring countries. Certainly the 
Indian Government and the Indian military, but also assistance 
was mobilized by Bangladesh, by Sri Lanka, by China, by Japan, 
by Thailand. And it has been just a tremendous outpouring of 
effort from within the region and across Asia, and it has been 
a really important indicator of the increasing capabilities 
throughout Asia to respond to humanitarian disasters.
    A lot of that is work that has been done by the United 
States working with our partners across Asia to build capacity. 
Both our Office of Foreign Disaster Assistance and our military 
have invested a tremendous amount of effort over the past 
decades in building disaster response capabilities, and that 
was on full display during this recent tragedy.
    Finally, Mr. Chairman, as I noted, that as we are still in 
the midst of relief we are already talking about and focusing 
on the longer-term recovery, and we are working together with 
the international community, with the World Bank, the United 
Nations, the Asian Development Bank, the European Union, and 
bilateral donors to come together around a common framework of 
needs. There will be a post-disaster needs assessment that will 
be led by the World Bank and the U.N., under which the 
Government of Nepal and all of the donor community are working 
together to have a common assessment of need. And based on 
that, we will work together to ascertain the assistance pledges 
from within Asia and around the international community.
    We do expect that a lot of the recovery will be Asian led, 
but the United States will have a very important role to play 
if we are to help Nepal not only recover from this earthquake, 
but build back better. We will have more on that as we 
progress, but Mr. Chairman, I want to pledge to you and to the 
ranking member that we will work very closely with Congress as 
we determine those needs and as we move forward.
    It is also a time of political delicacy as we continue to 
strengthen Nepal's efforts for political reconciliation, for 
constitutional drafting, and for strengthening its democracy 
moving forward. And we will seek to work through the relief and 
recovery phase in ways that build political consensus and unity 
and help strengthen the democratic process in Nepal.
    Finally, there are particular vulnerable groups within 
Nepal that are more affected by this earthquake, and we are 
very mindful of the needs of women and children, particularly 
the vulnerability to trafficking at a time when so much of the 
law enforcement capabilities are focused on earthquake relief. 
This is an area that we are already surging technical expertise 
and assistance to address, and we are working not only with the 
law enforcement authorities of Nepal, but also of neighboring 
countries, especially India, to ensure that we are addressing 
the needs of these most vulnerable victims of the earthquake so 
that they do not also become victims of trafficking.
    We are also working to ensure that minority populations and 
refugee communities within Nepal, who have long found refuge by 
the Government of Nepal, are also addressed in terms of the 
impact of the earthquake on Tibetan, Bhutanese, and other 
communities.
    Finally, as we are looking at the long term impacts, let us 
not forget the impact on Nepal's cultural heritage. The 
beautiful and ancient architecture of Nepal took a severe blow. 
I had a chance to walk through Durbar Square, and it was just a 
deeply moving sight to see some of these beautiful ancient 
buildings reduced to rubble. And it will take an effort from 
not just Nepal, but from the world to preserve this heritage, 
which is not just Nepal's heritage, but it is the world's 
heritage.
    So with that, Mr. Chairman, let me just thank you again for 
the leadership of this committee and of this Congress and the 
support that you have provided to the people of Nepal and to 
the U.S. Government's response to this tragic earthquake. I 
look forward to your questions.
    [The prepared statement of Ms. Biswal follows:]
     
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Staal.

      STATEMENT OF MR. THOMAS H. STAAL, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Chairman Salmon, Ranking Member Connolly, and 
members of the subcommittee, thank you very much for inviting 
us, for USAID especially, to testify regarding the humanitarian 
response to the Nepal earthquake. And of course thank you for 
your continuing support to our efforts.
    And of course we would like to express our deepest 
condolences to all of those who lost their lives and to the 
loved ones in this tragedy, including the families of the six 
U.S. marines and the two Nepalese soldiers who died. We are 
very grateful to our military, urban search and rescue teams, 
partners, and staff who are taking risks every day to save 
lives in Nepal.
    As you mentioned, the earthquake on April 25 and the 
aftershocks that followed caused huge, widespread damage across 
Nepal, and especially in the rural areas. But preparedness 
measures that USAID has supported over the years have helped 
save lives and mitigate damage.
    Today, I want to provide quickly an overview of our 
humanitarian response, and then I also want to share how we 
have leveraged investments in disaster risk reduction over the 
years to ensure the most effective and efficient response. And 
then I will turn it over to my colleague, John Stivers, who 
just returned from Nepal, to provide an overview of the next 
steps and initial plans for recovery.
    As you mentioned, to date the U.S. Government has provided 
nearly $47 million in humanitarian assistance. The funding is 
being used to address priorities, including emergency shelter--
we have got some plastic sheeting right here--safe drinking 
water, food, improved hygiene, protection of survivors, 
especially women and children, so quite a broad spectrum of 
assistance.
    Within hours after the earthquake hit we deployed a 
Disaster Assistance Response Team, as you mentioned. This 
included 20 USAID disaster experts, plus the search and rescue 
teams from Fairfax and from Los Angeles, and their famous now 
12 rescue K-9s. I think we have a picture of that that we can 
show too. Here is a photo of two of the USAR members, Teresa 
MacPherson and her K-9 Port, from Fairfax. I think we have got 
it there somewhere. There you go.
    We have learned from previous disaster responses the value 
of strong interagency coordination. Based on initial disaster 
assessments, we promptly requested assistance from our 
colleagues in the Department of Defense to provide airlift and 
logistical support. So that since May 4 we have now worked with 
the military to transport more than 109 tons of relief supplies 
to remote areas. The coordination has been exceptional.
    And our DART urban search and rescue, the USAR specialists, 
played a critical role in this response. In fact, I have got 
another photo here that many of you have seen, where they 
helped to identify and then pull a 15-year-old boy out of the 
rubble in Kathmandu 5 days after the earthquake hit. The yellow 
hats are the search and rescue folks in there. And then of 
course you have got Nepalis as well.
    And then, as you mentioned, they also rescued a 41-year-old 
woman after the May 12 aftershock. And they worked with the 
U.S. military to set up triage centers at the airport and 
treated more than 50 people using medical supplies purchased 
and airlifted out there by USAID.
    The USAR teams are home now, but our disaster experts 
remain to direct the U.S. response in coordination with the 
Government of Nepal and other donors. With the monsoon season 
fast approaching, as my colleague said, we are focusing on 
providing emergency shelter, improving water, sanitation and 
hygiene to hard-hit communities. We have airlifted so far 6,200 
rolls of this heavy duty plastic sheeting. We have got a 
picture of that being distributed. This can help 310,000 people 
build temporary shelters, protect their homes from damage and 
rain. And the last cargo flight with sheeting just landed this 
morning.
    And not only for homes, but you can use that plastic 
sheeting for other purposes. I think the next photo we have got 
showing that the Nepal Red Cross is using it as temporary 
classrooms and safe spaces for children to play. And that is 
another way of protecting women and children.
    Before I turn it over to John, I want to just briefly 
identify some insights on response from previous investments. 
Over two decades, we have partnered with the Government of 
Nepal to bolster its disaster management and emergency response 
capability. For example, we supported the Nepal Red Cross 
Society to preposition water treatment plants and stock 
warehouses with emergency supplies out in the rural areas, and 
these were distributed to 3,000 families within hours of the 
earthquake happening.
    We worked with the International Organization of Migration 
to identify, prepare, and preserve more than 80 open spaces 
throughout Kathmandu Valley, about half of which are now being 
used to shelter displaced. We retrofitted 50 schools to make 
them more earthquake resistant. And through our USAR teams, we 
checked these schools. Only six had damage, and very minor 
damage.
    And also, thanks to support for hospital preparedness, the 
hospitals were able to stay open and quickly provide support to 
earthquake survivors. One hospital has treated 700 survivors 
and performed 300 surgeries.
    So the impact of the quake could have been a lot worse 
without these preparedness efforts. And none of these 
investments of course would have been possible without your 
continued support. So thank you very much.
    And now I would like to turn to John to lay out some of the 
plans for the recovery phase. Thank you.
    Mr. Salmon. Mr. Stivers.

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Thank you. Chairman Salmon, members of the 
subcommittee, thank you for scheduling this important hearing. 
It is always an honor for me to testify before this 
subcommittee. Thank you for your continued support for USAID's 
humanitarian and development initiatives, which save lives and 
put people on a path toward democracy, resilience, and 
prosperity.
    I join with this committee and my colleagues in expressing 
their deepest condolences to all who have lost their lives in 
this tragedy, including the six marines and two Nepalese 
soldiers who died.
    I was in Nepal shortly after the earthquake, and I can 
attest to the expertise, determination, and bravery of our 
personnel who are saving lives and mitigating the damage of 
this terrible earthquake. I can also attest to the resilience 
of the people of Nepal, who are determined to put their lives 
back together and move forward stronger than before.
    Building on the remarks of my colleagues, I will focus 
first on the context of the earthquake, including the U.S. role 
in Nepal's development in recent years, then second on our 
efforts to protect vulnerable people, especially women and 
girls, from trafficking and exploitation, and third some early 
thoughts on Nepal's long-term recovery.
    So first, in regards to development, Nepal is one of the 
poorest countries in the world and continues to cope with the 
effects of a decade-long insurgency that ended in 2006. Prior 
to the earthquake, Nepal had made significant development 
gains, including with support from President Obama's Feed the 
Future initiative and Global Health and Global Climate Change 
initiatives.
    Three development accomplishments that we can be proud of. 
First, we have helped Nepal cut its extreme poverty rate in 
half, to 25 percent, in recent years. Second, we have helped 
significantly decrease maternal and infant mortality, putting 
Nepal on track to meet its Millennium Development Goals and 
giving mothers and children a better future. And third, since 
the conflict ended in 2006, we have supported Nepal in carrying 
out two free and fair elections, with high voter turnout, due 
to our voter registration efforts and support for their 
Election Commission.
    Despite these achievements, Nepal has significant 
challenges ahead. The combination of weak democratic governance 
institutions and a natural disaster threaten the stability of 
this fragile democracy and the gains that have been made over 
the last decade.
    In regards to gender-based violence, prior to the 
earthquake human trafficking was a prevalent problem, and the 
current disaster puts women and girls at great risk. USAID is 
leveraging its anti-human trafficking program to respond to 
these heightened protection needs. For example, our partner, 
the Asia Foundation, is identifying those in need and providing 
support to help vulnerable people cope with the trauma of loss 
and make decisions that do not put them at risk of trafficking, 
sexual abuse, and exploitation. USAID is expanding on those 
efforts to five more earthquake-affected districts, building on 
our ongoing legal counseling to survivors of trafficking and 
training of justice sector officials to effectively investigate 
and prosecute trafficking cases.
    Thank you to the members of this committee for really 
keeping this issue front and center for U.S. priorities in Asia 
and around the world.
    In regards to the long-term recovery, time and again we 
have seen the value of initiating recovery efforts even as a 
disaster response is underway. In the coming weeks and months, 
we will work with the Government of Nepal and the international 
community and local civil society to advance the long-term 
recovery effort. USAID is working closely on a World Bank-led 
post-disaster needs assessment, PDNA, that should provide a 
framework for a donors conference to consider the long-term 
construction needs.
    While that assessment will not be completed until mid-June, 
we anticipate that shelter and infrastructure will be the 
greatest need. We have learned from past disasters that 
recovery in other areas is contingent on people having a safe 
place to live.
    Shortly after the earthquake, I had the opportunity to 
participate in an aerial survey and observe the distribution of 
relief supplies in Sinhupalchowk, one of the worst-hit 
districts in the mountains north of Kathmandu. In this 
district, it is estimated that 70 percent of the structures 
were destroyed, and 40 percent of the deaths occurred here.
    The remoteness of these hardest-hit towns makes delivering 
relief supplies before monsoon season next month extremely 
difficult, and assessing the full scope of the reconstruction 
effort is a major challenge based on this terrain. But we know 
that the recovery will need to focus on livelihoods and food 
security, health and hygiene, water and sanitation, education, 
protection of vulnerable people, and disaster risk management.
    Efforts to strengthen governance systems will also be 
critical to ensure that recovery investments are transparent, 
accountable, and responsive to local needs. We look forward to 
working with the U.S. Congress to determine the appropriate 
U.S. Role in Nepal's long-term recovery.
    Nepal will not walk this road alone. The U.S. Was one of 
the first countries to enter Nepal in 1951 when the government 
opened its borders to the outside world. We are Nepal's 
longest-standing development partner, and we will work 
alongside the Nepalese people on the front lines of this 
response and recovery.
    Thank you for the congressional support of our disaster 
response and development efforts in Nepal and around the world, 
and I look forward to answering any questions. Thank you.
    [The joint statement of Mr. Staal and Mr. Stivers follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Ms. Witkowsky.

STATEMENT OF MS. ANNE A. WITKOWSKY, DEPUTY ASSISTANT SECRETARY 
OF DEFENSE, STABILITY AND HUMANITARIAN AFFAIRS, U.S. DEPARTMENT 
                           OF DEFENSE

    Ms. Witkowsky. Thank you. Mr. Chairman, Ranking Member 
Sherman and distinguished members of the committee, thank you 
for the opportunity to testify today.
    Mr. Connolly. For the record, I am not Ranking Member 
Sherman.
    Ms. Witkowsky. I am sorry. Ranking Member Connolly.
    Mr. Connolly. Thank you.
    Ms. Witkowsky. I apologize.
    Mr. Connolly. Apparently we look a lot alike. Just teasing.
    Ms. Witkowsky. May I try again?
    Ranking Member Connolly and distinguished members of the 
committee, thank you for the opportunity to testify today 
regarding the Department of Defense role in the U.S. Response 
to the April 25 Nepal earthquake and May 12 aftershock.
    First, I would like to express my deep sadness and offer my 
condolences to the families of the six marines and their 
Nepalese counterparts lost in a helicopter accident supporting 
the relief effort. This tragedy is a reminder of the vital role 
that U.S. Servicemembers play in delivering humanitarian 
assistance and disaster relief, but one that is not without 
risk.
    The Department has a long history of military-to-military 
engagement in Nepal and the Pacific region. This engagement has 
focused on several areas most relevant to today's hearing, 
increasing Nepal's humanitarian assistance and disaster 
response capabilities.
    In recent years, through U.S. Pacific Command, DOD has 
worked with the Nepalese Government on initiatives designed 
specifically to mitigate the impact of a disaster such as this 
one. These efforts include construction of Deep Tube Wells to 
provide water in the event of an earthquake or landslide, 
establishment of an earthquake-resistant central blood bank, 
construction of earthquake-resistant emergency facilities at 
Nepal's main airport, training on rapid repair of runways, 
establishment of emergency operation centers, and the 
construction of multiple disaster material warehouses.
    In addition, we have engaged in disaster-reduction 
exercises and exchanges, including an earthquake scenario field 
training exercise in 2013 and a regional disaster preparedness 
summit hosted in Bangladesh in 2014. Another round of exchange 
training is scheduled for later this year.
    Such efforts, along with other steady-state DOD 
humanitarian assistance projects, help to deepen our 
cooperation with our Nepalese partners and appear to have 
mitigated some of the impacts of the earthquake and facilitate 
its subsequent response efforts. For example, the DOD-funded 
Deep Tube Well Project is currently being used to provide water 
and power to more than 5,500 internally displaced persons, as 
well as local villagers and Nepalese police in the Kathmandu 
Valley.
    On April 25, just hours after the quake, Secretary Carter 
directed that the Department provide support to the Government 
of Nepal-led relief effort, responding to USAID's request for 
assistance. The Commander of U.S. Pacific Command ordered two 
special forces teams already in Nepal for training to assist 
the Embassy team with immediate lifesaving relief and medical 
support.
    Additionally, U.S. Transportation Command provided two C-17 
aircraft to airlift the previously mentioned USAID Disaster 
Assistance Response Team, the DART, as well as the two urban 
search and rescue teams from Fairfax County, Virginia, and Los 
Angeles County, California. These teams launched in the hours 
after the initial earthquake and arrived in Kathmandu on April 
28.
    U.S. Pacific Command also deployed a 20-person Joint 
Humanitarian Assessment Support team, commanded by Marine 
Brigadier General Paul Kennedy, to provide subject matter 
expertise to the DART leader and better frame military 
requirements.
    As the Disaster Assistance Response Team and the Joint 
Humanitarian Assessment Support Team came to understand the 
scale of the disaster, it became clear that more military 
support would be required. Rotary wing airlift and airfield 
management specialists in particular were needed to help 
increase throughput of the increasingly backlogged 
international airport.
    The U.S. Military response, named Operation Sahayogi Haat, 
Nepali for Helping Hand, is under the control of Joint Task 
Force 505, commanded by Marine Lieutenant John Wissler. The JTF 
has had more than 900 total personnel in Nepal, Thailand, and 
Japan. Up to 300 of those personnel have been forward staged to 
Nepal with Brigadier General Kennedy.
    To date, Joint Task Force 505 has provided airlift, 
airfield services, search and rescue support, and other support 
to the USAID-led response.
    As of May 19, the joint task force has flown 290 relief 
flights, airlifted 1488 passengers, and airlifted more than 728 
tons of material, including relief supplies.
    In conclusion, the Department of Defense, in support of our 
USAID and Department of State partners, has responded swiftly 
to assist the Government of Nepal. The relief efforts to date 
highlight the unique capabilities the Department can bring to 
bear in the U.S. Government response to natural disasters and 
humanitarian crises.
    Thank you again for this opportunity to highlight the great 
work that the men and women of the Department of Defense are 
doing alongside our partners in USAID and the State Department, 
and I look forward to your questions.
    [The prepared statement of Ms. Witkowsky follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    I understand Mr. Connolly has another function or another 
scheduling issue, so I am going to let you ask the first 
question.
    Mr. Connolly. Mr. Chairman, thank you. You are most 
gracious. I really appreciate it.
    And, again, welcome to our panel.
    I am particularly interested as a long-time supporter of 
and participant in USAID programs lessons learned. What worked? 
What didn't? We have been in Nepal since 1951. We have done a 
lot of training and spent a lot of money on emergency 
preparedness, knowing this is a high-risk area to begin with. 
You are between two tectonic plates that created the Himalayas, 
so I mean, this is real stuff.
    What worked? What worked well, Mr. Staal, in your opinion, 
and what disappointed us that we have to beef up and improve?
    Mr. Staal. Thank you, Congressmen Connolly. It is a very 
important question and something that we take very seriously. 
In fact, every time we do a humanitarian response like this, we 
do an after-action. So that will be coming out as well.
    But even early on, I think we can already see that a number 
of things worked well. Certainly, our coordination with the 
military. And not just that it worked well now, but the fact 
that we had already developed good relationships, good working 
relationships. In fact, Paul Kennedy that Ms. Witkowsky 
mentioned, also helped us on the Haiyan response.
    Mr. Connolly. You are talking about our military?
    Mr. Staal. Our military, exactly.
    Mr. Connolly. Yeah.
    Mr. Staal. So we lashed up really well, and that is an 
important thing, that we continue to build that.
    And also our relationship on the ground, training of search 
and rescue teams within Nepal, first responders there, both in 
the government and even volunteers. I mean, that made a huge 
difference. Prepositioning supplies around the country, both 
from us and from the military side, made a huge difference. It 
is hard to measure the negative, but I think that made a huge 
difference.
    Coordination is still an ongoing challenge, and certainly 
in any disaster this big, especially in a disaster in a country 
that has governance challenges. So certainly the government is 
leading the effort, but we have had to provide quite a bit of 
support to that in a number of ways. The U.N. System quickly 
set up what they call a cluster system where you have sectoral 
groups, health cluster, a logistics cluster, a protection 
cluster, and so on, so that all different agency who are 
providing humanitarian assistance can work together, and that 
helped the government in terms of their leadership.
    And even one of the issues we noticed was that at the 
airport the ability of the Nepalese Government to manage all 
the supplies that were coming in was inadequate. So, again, we 
called on our friends from DOD to come in, and they helped to 
provide a very important part of that kind of commodity 
management at the airport.
    There is still weakness in a rural area where you have got 
the majority of the problem way out in the countryside in a 
very difficult terrain. They have building codes that they have 
developed, again with our support, and we have done a lot of 
training for the government on implementing those building 
codes, but it still needs a lot of work, and especially as you 
get out of Kathmandu.
    In Kathmandu, 90 percent of the buildings were basically 
undamaged. And it was any kind of new buildings are pretty 
untouched. It is really the older buildings, some of the ones 
with a heritage, unfortunately, where----
    Mr. Connolly. Temples.
    Mr. Staal. Temples and things like that.
    And then when you get out into the small villages on the 
hillsides, frankly, they don't know about building codes, and 
that is a bigger challenge that we still, I think, have to 
figure out how we are going to address that in a very rural 
setting like that.
    Mr. Connolly. Just real briefly, anyone else want to take a 
crack at sort of lessons learned, things we thought worked 
well, things we have got work to do still?
    Ms. Biswal.
    Ms. Biswal. Congressman Connolly, after the devastating 
Gujarat earthquake of 2000--I think it was 2001--Congress 
appropriated and USAID implemented over a number of years a 
partnership between the Government of India and the United 
States on creating a national disaster management agency. We 
provided some of the technical expertise.
    That capability in India today is quite sophisticated, 
quite advanced. The recent super-cyclone that hit Orrisa was a 
tremendous reflection of India's capabilities, because the loss 
of life was minimal in a category 5 super-cyclone. That 
capability was on display in Nepal as part of India's response 
to the earthquake, and the United States can feel proud for the 
role that it has played around the region in investing in 
disaster response capabilities.
    There is more to be done in trying to foster more regional 
coordination and advanced planning of regional responses, but 
the fact that there is so much capability in the region today, 
and the experiences of many of these countries in their own 
earthquakes, is something that we have a direct hand.
    Mr. Connolly. Very heartening to here.
    Thank you all so much.
    And, Mr. Chairman, thank you so much for your graciousness. 
I really appreciate it.
    Mr. Salmon. Thank you very much.
    I just want to start out with, it is a little bit of a 
statement, and I wanted to direct it to you, Ms. Witkowsky, 
regarding a conversation I had with the Hug family, whose son 
Jake died in that tragic crash.
    They were, obviously, upset by his passing, but they were 
further upset because in some dialogue that they had with the 
bereavement folks that they are working with within the 
Department of Navy, they were told off the record that, well, 
if their son had been killed in combat that they would be 
afforded the opportunity and the full support of our country to 
go to the Dover ceremony and the funding that goes along with 
that, so that his parents could go to that extremely important 
vigil. But they were told that there is kind of a double 
standard. If you are killed in a mission like this, a search-
and-rescue mission, it is not considered combat, and that they 
wouldn't be covered to go.
    Now, I first reached out to Mac Thornberry, the chairman of 
Armed Services. He was pretty upset by that. I don't think the 
American people would understand that at all, much less the 
family of the hero. But I know that we have reached out to the 
Secretary of the Navy, Ray Mabus, and I believe in my heart he 
will do the right thing.
    So would you please pass that on, that we are expecting 
good things?
    Ms. Witkowsky. I will absolutely do that, Mr. Chairman. 
Thank you.
    Mr. Salmon. Thank you very much.
    A question I have is regarding getting the actual food and 
different emergency provisions to the people of Nepal. I 
understand there are some complications, and I am told that it 
is regarding the rules of cargo preferences and that 50 percent 
of the U.S. Government cargo has got to be transported on U.S. 
flagged vessels. Is that the reason that the estimates in 
taking this prepositioned food ship from Colombo to Calcutta 
and then overland to Nepal, that it could take 45 to 60 days, 
is that why this is happening? And if so, are there some 
concessions we can make to speed that up?
    Mr. Staal.
    Mr. Staal. Thank you, Chairman Salmon. That is an important 
question.
    Let me clarify. First of all, what we were able to do, 
there was food prepositioned already in Nepal.
    Mr. Salmon. Right.
    Mr. Staal. So that got things out. That was obviously 
quick. And then also we were able to use IDA funds with the 
flexibility provided us by Congress to allow WFP to buy food 
locally, like within northern India and nearby, to get some 
food going very quickly.
    So the food that is coming in from Sri Lanka, it doesn't 
need to be there within days. It is okay that the timing will 
then sort of refill the pipeline and provide for needs over the 
next few months. So it didn't delay any of our food aid. I want 
to clarify that to begin with.
    And secondly, regarding the cargo preference, I mean, that 
is a more complicated question. But in the case of a really 
dire emergency like that, the cargo preference rule is a little 
more generic. We do have the 50 percent, but it is not just on 
every individual shipment. It can be generalized. So that 
doesn't really hold us up on this particular issue.
    Mr. Salmon. Okay. So we can look for every effort to 
expedite this?
    Mr. Staal. Absolutely. Yes, for sure.
    Mr. Salmon. Great.
    Another question I have is regarding the local government, 
the Nepalese Government, and their reaction. Obviously, they 
have got to take a leading role in the response efforts.
    Could you please discuss the role of the Government of 
Nepal in leading the response to this disaster and describe the 
structure of its disaster response mechanism, and how would you 
assess the strengths and their weaknesses of the response? And 
with some of the fears regarding government corruption, what, 
if any, measures are in place to address corruption with the 
relief effort underway?
    Ms. Biswal.
    Ms. Biswal. Thank you. Let me provide some initial comments 
and then invite my colleague, John Stivers, as well if he wants 
to weigh in.
    Clearly, there is an issue in terms of the capacity of the 
Government of Nepal on the bigger challenge of long-term relief 
and recovery. In the initial relief phase, the Nepalese 
military has played a critical role in deploying their forces 
across all of the affected districts and in coordinating and 
assisting in the delivery of relief. And I think that they have 
performed admirably. They have interfaced extremely well with 
our military and our civilian forces, and we have had little 
complaint in terms of the efficacy of this effort in light of 
the magnitude of the disaster that we were facing.
    There is an issue in terms of how the longer-term effort 
will be coordinated. Nepal has a National Planning Commission, 
and we are working with the Planning Commission, we are working 
with the Home Ministry, and with the Finance Ministry.
    It is a time when the picture is still evolving in terms of 
what is going to be the most effective way for Nepal to 
coordinate the longer-term efforts, and they are thinking 
through that. There is a team that is in Kathmandu from India's 
National Disaster Management Agency to provide technical 
assistance.
    We have also worked with our Pakistani colleagues, because 
General Nadeem, who oversaw the Pakistan earthquake response 
and reconstruction, and who has been very lauded globally for 
the transparency and the efficacy of the response that he 
oversaw, has also been brought in under USAID's leadership to 
come in and help provide some assessment and some assistance in 
terms of how Nepal can think about managing its relief going 
forward.
    This is a country that is still coalescing in terms of its 
democratic institutions and institutions of government. So it 
is going to require the persistence and the partnership of the 
international community in supporting them in their efforts to 
manage a recovery effort. We want them to succeed. We don't 
want to take it over from them, but we want them to succeed, 
and there will be an element of partnership over the coming 
months in helping them get this right.
    Mr. Salmon. Mr. Stivers.
    Mr. Stivers. Thank you.
    There is no question that government is a major challenge 
in Nepal. Institutionally, it is difficult for the government 
to deliver basic services, enforce building codes, et cetera. 
The parties haven't come together in terms of a constitution. 
They haven't had local elections yet, which is a major 
challenge when it comes to the relief and long-term recovery 
effort.
    We continue to help them try to work together on all of 
these issues, and we need to make sure, the international 
community needs to make sure that the long-term recovery takes 
into account how we can build Nepal's capacity not only to 
better withstand natural disasters, but also to move forward 
and come out of their fragile democratic stage to consolidate 
their democracy.
    Mr. Salmon. Thank you very much.
    Ms. Meng.
    Ms. Meng. Thank you.
    I wanted to follow up on Assistant Secretary Biswal's 
comments about helping vulnerable populations in light of 
potential human trafficking increase, specifically, with women 
and girls that often have unique needs that may be overlooked 
during crises. After food, water, and shelter are in place, 
there is rarely a budget left for basic health and hygiene 
needs for girls and women, like prenatal care and safe 
childbirth delivery services for expectant women and sanitary 
provisions for women during menstruation.
    How is the U.S. Supporting providing support for these 
specific needs? Oftentimes women are too ashamed to ask for 
help.
    Ms. Biswal. Let me give you some initial comments, and then 
I will also, again, turn to Mr. Stivers on some of the work 
that AID is already doing in Nepal with respect to women and 
girls, and particularly focusing on health and hygiene.
    But you are correct to say that this is a time of extreme 
vulnerability. And over the years, we have learned that it is 
in times of crisis and times of disaster response that 
particular attention has to be paid to issues of protection and 
issues of addressing the particular needs of vulnerable groups 
and vulnerable populations.
    And so I think, not only in terms of the U.S. Government's 
response, but really, what I am hearing in terms of the 
awareness of the civil society in Nepal. When I was in India 2 
days after the earthquake, the civil society organizations in 
India were themselves coming up to me and raising with me the 
need to focus on these groups. So there is an extreme attention 
to the issue.
    I was in New York just a couple of days before heading to 
Nepal, meeting with the United Nations, with the OCHA and UNDP 
teams who are also looking at their earthquake response, and, 
again, the issue of particularly addressing the needs of women 
and girls, addressing the needs of children, and addressing 
particularly the health needs were something that the U.N. 
System was putting an integrated team in place so that UNICEF, 
the World Health Organization, OCHA, UNDP were all coordinated, 
and the World Food Programme, on making sure that there was an 
integrated and comprehensive response.
    Mr. Stivers. Well, in terms of before the earthquake, we 
have had, in terms of the successes in decreasing child and 
maternal mortality, is something we are very proud of having a 
role in. We know that saving the life of the mother not only 
transforms the health of her family, but the strength of a 
country and the profound impact that has.
    We have scaled up the use Chlorhexidine, which is a gel 
applied to the umbilical cord, which aids in reducing newborn 
mortality, that we have scaled up in Nepal, which has been very 
successful at that.
    In terms of the earthquake, the numbers are staggering. I 
think 2.8 million children have been affected, and 40,000 women 
are at immediate risk of gender-based violence. So the 
situation, the problem is so significant, and thank you to this 
committee and to Members of Congress for really putting that 
forward in terms of the resolution that I saw from the 
committee.
    USAID, in the short term, we are expanding our Combating 
Trafficking in Persons project that works with NGOs and the 
government to prevent trafficking, protect victims, and 
prosecute those responsible. That program has strengthened the 
justice sector on human trafficking, leading to a 63 
convictions recently. And in the long term, protection of 
vulnerable populations has got to be a key point in the longer-
term recovery. It is a high priority certainly now in the 
relief effort, and in the longer-term recovery we have to keep 
our eye on the ball. So thank you for your leadership and for 
that question.
    Ms. Meng. I know I am running out of time, but I, again, 
want to thank the administration for contributing to these 
urgent relief efforts.
    Another significant way I believe that we can help limit 
the strain on that country's resources is by designating Nepal 
for TPS, temporary protected status. In a very similar 
circumstance, after Haiti's massive earthquake, the Secretary 
of Homeland Security acted very quickly to designate Haiti for 
TPS.
    I know that the new Ambassador met with Secretary Kerry 
last week, and my understanding is that the Government of Nepal 
has requested TPS. While it is ultimately a DHS determination, 
I know that DHS heavily relies on the State Department's 
recommendation. I just want to ask what the status of the State 
Department's recommendation and this request is.
    Ms. Biswal. Thank you for that question, Congresswoman. I 
know that this is an issue of great importance and 
prioritization not only in the U.S. Congress with the Nepali 
Government, but also within the State Department. We do think 
that the provision of temporary protected status is an 
important way to provide some relief to Nepalese citizens who 
are in the United States and who need to stay here for some 
time until the situation in Nepal becomes more stabilized.
    The Secretary has sent his recommendation to the Department 
of Homeland Security, and the decision is now with the 
Department of Homeland Security. So we will be awaiting their 
determination.
    Ms. Meng. Okay. Thank you.
    I yield back.
    Mr. Salmon. Thank you.
    This concludes the questions. I would like just to make 
another brief comment, that we are second to none, I think, in 
the world when it comes to disaster relief. I think that that 
is one of the things that the United States does exceptionally 
well. And I want to commend all of you for the amazing job that 
you do in balancing our priorities overseas.
    I have been all over the world in my capacity, both in the 
private sector as well as in my capacity of my ninth year on 
Foreign Affairs, and I am always so very proud when I go to the 
Embassy. I meet with the USAID people, I see our defense folks. 
They are the brightest and the best in the world, and I am so 
proud of the job that you all do, so very proud. And you have 
done your country proud today in your testimony, and we 
appreciate you for coming here and doing that.
    Without objection, member statements will be allowed to be 
inserted for the record.
    And there is no further business, this committee is now 
adjourned.
    Mr. Stivers. Thank you.
    [Whereupon, at 3:40 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
